No. 20-355
In the

Supreme Court of the United States
ARCTIC CAT INC.,
Petitioner,

v.

BOMBARDIER RECREATIONAL PRODUCTS INC.,
BRP U.S. INC.,
Respondents.
CERTIFICATE OF SERVICE
I am counsel for Petitioners and a member of the bar of this Court. I certify that,
on November 5, 2020, a printed copy of the Stipulation of Dismissal was filed
electronically, and sent by commercial carrier for overnight delivery to the Supreme
Court of the United States, and by commercial carrier for overnight delivery and e-mail
to the following counsel of record for Respondents:
Louis W. Tompros
WILMER CUTLER PICKERING HALE & DORR LLP
60 State Street
Boston, MA
(617) 526-6886
louis.tompros@wilmerhale.com
Counsel of Record for Respondents

William H. Burgess

